<html>
<title> - NOMINATIONS OF DANIEL J. KANIEWSKI AND JONATHAN H. PITTMAN</title>
<body><pre>[Senate Hearing 115-358]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-358
 
       NOMINATIONS OF DANIEL J. KANIEWSKI AND JONATHAN H. PITTMAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

            NOMINATIONS OF DANIEL J. KANIEWSKI TO BE DEPUTY
        ADMINISTRATOR FOR PROTECTION AND NATIONAL PREPAREDNESS,
         FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S DEPARTMENT OF
  HOMELAND SECURITY AND JONATHAN H. PITTMAN TO BE AN ASSOCIATE JUDGE, 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                           SEPTEMBER 12, 2017

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        





                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-202 PDF              WASHINGTON : 2018      
 
 
 
 
 
 
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
               Margaret E. Daum, Minority Staff Director
               Donald K. Sherman, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Harris...............................................     7
    Senator Hassan...............................................    10
    Senator Peters...............................................    12
    Senator Daines...............................................    18
Prepared statements:
    Senator Lankford.............................................    23
    Senator Heitkamp.............................................    25
    Hon. Eleanor Holmes Norton...................................    26

                               WITNESSES
                      Tuesday, September 12, 2017

Daniel J. Kaniewski to be Deputy Administrator for Protection and 
  National Preparedness, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security
    Testimony....................................................     4
    Prepared statement...........................................    27
    Biographical and financial information.......................    29
    Letter from the Office of Government Ethics..................    41
    Responses to pre-hearing questions...........................    45
    Responses to post-hearing questions..........................    61
    Letters of support...........................................    65
Jonathan H. Pittman to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     6
    Prepared statement...........................................    78
    Biographical and financial information.......................    79


       NOMINATIONS OF DANIEL J. KANIEWSKI AND JONATHAN H. PITTMAN

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:17 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford presiding.
    Present: Senators Johnson, Lankford, Daines, McCaskill, 
Carper, Tester, Heitkamp, Peters, Hassan, and Harris.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning. I am glad everybody is 
here. Today, we will consider the nomination of Daniel 
Kaniewski to be Deputy Administrator of the Federal Emergency 
Management Agency (FEMA) for Protection and National 
Preparedness (PNP) as well as the nomination of Jonathan 
Pittman for the position of Associate Judge in the Superior 
Court of the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 23.
---------------------------------------------------------------------------
    The Committee takes these two nominations very seriously, 
rightfully so. We are pleased to have two strong nominees 
before us.
    The Federal Emergency Management Agency serves our citizens 
and first responders by coordinating Federal and 
nongovernmental resources to prepare for, protect against, 
respond to, and recover from domestic disasters. It is 
essential that we have strong leadership in place at FEMA to 
fully support our communities in the times of disaster, times 
like right now of things that are going on. That is why it 
makes it exceptionally important not only that we have all 
personal at FEMA in place, but Mr. Kaniewski's position 
specifically deals with disaster preparedness, so it is getting 
ready for the next disaster that may be coming to us.
    Daniel Kaniewski received his undergraduate degree and 
Ph.D. from George Washington University, a master's degree from 
Georgetown University. Mr. Kaniewski has had an impressive 
career in both public and private sector. It makes him well 
qualified to serve in this role that he is nominated for at 
FEMA. This includes serving as a Special Assistant to the 
President for Homeland Security; Senior Director of Response 
Policy; Mission Area Director for Resilience for the Homeland 
Security Studies and Analysis Institute; Vice President for 
Global Resilience for AIR Worldwide, a catastrophic risk 
modeling and consulting firm; and as a Commissioner for the 
District of Columbia Homeland Security Commission.
    I have spoken to Mr. Kaniewski's colleagues and affiliates 
who all speak very highly of him. They talk about his 
competence, his skill, and his work ethic.
    Two former FEMA Administrators with the Obama 
Administration and former DHS Secretary Michael Chertoff have 
submitted written comments in support of Mr. Kaniewski's 
nomination. His nomination is supported by both the National 
and International Association for Emergency Managers.\1\
---------------------------------------------------------------------------
    \1\ Letters of support for Mr. Kaniewski appear in the Appendix on 
page 65.
---------------------------------------------------------------------------
    The Committee is confident Mr. Kaniewski is qualified to be 
the Deputy Administrator for National Preparedness, which would 
mean for the next disaster, when it happens, we will be 
perfectly prepared because you will be in place. No pressure. 
[Laughter.]
    Mr. Pittman received a bachelor of arts degree from Vassar 
College and a law degree from Vanderbilt University. After 
graduation, Mr. Pittman clerked for the Honorable John A. 
Terry, an Associate Judge on the District of Columbia Court of 
Appeals. Following his clerkmanship, Mr. Pittman practiced law 
at the firm Crowell & Moring and then later joined the Civil 
Litigation Division in the Office of the Attorney General (OAG) 
for the District of Columbia, where he currently serves as 
Acting Assistant Deputy Attorney General.
    Committee staff reached out to numerous colleagues--and I 
do mean numerous, Mr. Pittman--and the comments were uniformly 
positive, with specific praise given to his decency, his 
professional manner, his strong analytical skills, and superb 
writing.
    Staff interviewed both nominees on an array of issues, and 
each has thoughtfully and completely and competently answered 
each question.
    To date, the Committee has found you to be qualified for 
the position you have been nominated. I look forward to 
speaking with both of you more today on your experience and 
accomplishments, how you intend to bring them to bear for FEMA 
and for the District of Columbia.
    I now recognize the Ranking Member, Heidi Heitkamp, for 
opening statement.

            OPENING STATEMENT OF SENATOR HEITKAMP\2\

    Senator Heitkamp. Thank you, Chairman Lankford.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Heitkamp appears in the 
Appendix on page 25.
---------------------------------------------------------------------------
    I want to begin by saying that our thoughts and prayers are 
with the people of Texas, Florida, the Caribbean, Louisiana, 
and elsewhere who are currently recovering from the devastation 
caused by Hurricanes Harvey and Irma.
    The road to recovery will not be easy, but the good and 
brave work that is being done first by our local responders, 
everyday citizens as well as the men and women of FEMA, is a 
testament, I think, to America's strength and resiliency.
    The devastating reminds us of FEMA's critical mission to 
save and protect lives and help communities recover, and the 
Deputy Administrator for Protection and National Preparedness 
position plays a critical role in achieving this goal.
    If confirmed, Dr. Kaniewski, you would oversee the Grants 
Program, which administers the Federal assistance grants in an 
effort to improve emergency preparedness in our country and 
national preparedness in our country and national preparedness 
directive, which provides doctrine, programs, resources, and 
training that is necessary to prevent, protect against, 
mitigate, respond to, and recover from disasters.
    I appreciate the expertise you bring from the public, 
private, and academic sectors, and the high regard that the 
emergency management establishment holds for you and your 
understanding of the importance of engaging a diverse group of 
stakeholders on FEMA's initiatives and fostering relationships, 
most importantly, with State and local partners.
    I look forward to learning more about your qualifications 
and your desire to serve.
    We also have the privilege today of considering a nominee 
for the Superior Court of the District of Columbia. Jonathan 
Pittman currently serves as Assistant Deputy Attorney General 
for the District of Columbia and heads up the Civil Litigation 
Division. As Assistant Deputy, Mr. Pittman oversees the day-to-
day operations of the division to develop strategy and court 
documents for significant cases, advises D.C. officials, 
manages the division's staff and attorneys, and prepares post-
litigation reports and appellate material.
    Mr. Pittman, we truly do appreciate your willingness and 
interest in serving as a judge, and we look forward to learning 
more about your qualifications.
    We also want to acknowledge a special guest, and obviously, 
I am speaking to your incredible qualifications. The Chief 
Judge Robert Morin is here with us, Chief Judge of the Superior 
Court. I know how incredibly busy that court is, and it speaks 
volumes to us here on this side of the dais that you are 
willing to take time out of your schedule to support this 
candidate.
    I think collegiality on the courts among the judges is so 
critical to making sure that the best and brightest continue to 
participate, so thank you, Chief Judge, for joining us.
    So I want to thank both of the nominees for their 
willingness to serve the citizens of this great country, and I 
look forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Lankford. It is the custom of this Committee to 
swear in all witnesses that appear before us, so if you would 
both please stand and raise your right hand. Do you swear the 
testimony you are about to give before this Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Kaniewski. I do.
    Mr. Pittman. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect that both witnesses have answered in 
the affirmative.
    Mr. Kaniewski, we are going to begin with you for opening 
statements. We would be honored if you would also introduce any 
family or guests that you brought with you today as a part of 
your opening statement and be glad to be able to receive that 
statement now.

  TESTIMONY OF DANIEL J. KANIEWSKI,\1\ NOMINATED TO BE DEPUTY 
ADMINISTRATOR FOR PROTECTION AND NATIONAL PREPAREDNESS, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Kaniewski. Chairman Lankford, Chairman Johnson, Ranking 
Member Heitkamp, thank you for having me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kaniewski appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    I am Daniel Kaniewski, and I am delighted to appear before 
you regarding my nomination as Deputy Administrator for 
Protection and National Preparedness at the Federal Emergency 
Management Agency.
    Before I begin, I would like to acknowledge those impacted 
by Hurricanes Harvey and Irma. Our prayers go out to those who 
have suffered, and I would also like to acknowledge those 
Federal, State, and local responders who have been working 
tirelessly, in many cases, for back-to-back disasters, 
including those dedicated staff at FEMA who, if confirmed, I 
hope to join and support.
    My father, Wayne, and my brother, Bob, are seated behind me 
here today. My mother is away and watching online. Hello, Mom. 
I would also like to thank President Trump, former Secretary 
John Kelly, and Acting Secretary Elaine Duke for supporting my 
nomination for this position.
    I have spent my entire career in homeland security and 
emergency management, and I would like to take this opportunity 
to briefly describe my qualifications for this position.
    As I sit here today, I vividly remember the morning of 9/
11, where from the press gallery atop the United States 
Capitol, I watched with disbelief the smoke rising from the 
Pentagon. Later, we would learn that we were in the bull's-eye 
for the 9/11 hijackers.
    I also think back to August 2005 when, shortly after I had 
joined the White House, Hurricane Katrina roared ashore. There, 
I witnessed firsthand the failed response to that disaster and 
subsequently became co-author for the Federal report ``The 
Federal Response to Hurricane Katrina: Lessons Learned'' and 
oversaw the implementation of those lessons over my 3 years 
there. Both of these experiences reaffirmed my belief that this 
is the field that I would dedicate my career.
    It is, thus, an honor to be here today and answer your 
questions for this critically important role at an agency that 
has shaped my professional development.
    For the past 20 years, I have focused on efforts to better 
prepare governments and citizens for natural and manmade 
disasters. I began my career as a firefighter paramedic in 
1996. In that role, I learned firsthand the need for preparing 
for major incidents, and I subsequently earned a degree in 
emergency medical services, became certified as a paramedic, 
and engaged on these policy issues with several governmental 
and non-governmental organizations.
    As Special Assistant to the President for Homeland Security 
and Senior Director for Response Policy in the George W. Bush 
Administration, I advised the President and senior White House 
staff during domestic incidents and coordinated interagency 
emergency management policies. I oversaw the disaster 
declaration process for over 200 Presidentially declared 
disasters.
    I have also analyzed emergency management polices at think 
tanks and in academia. At George Washington University, I was 
an assistant vice president for homeland security and deputy 
director of the Homeland Security Policy Institute. In that 
capacity, I contributed to contemporary homeland security and 
emergency management policy through publications and media 
appearances and task forces.
    I also taught emergency management at George Washington 
University and national security courses at the Georgetown 
University School of Foreign Service.
    I closely supported FEMA for 3 years as Mission Area 
Director for Resilience and Emergency Preparedness and Response 
at a federally funded research and development center 
supporting the Department of Homeland Security. There, I was 
the senior executive responsible for emergency management, 
infrastructure protection and resilience, and cybersecurity.
    I currently lead the resilience practice at a catastrophe 
risk modeling and consulting firm, AIR Worldwide. My practice 
identifies and quantifies risks to populations and 
infrastructure, evaluates mitigation strategies, informs 
disaster finance programs, all with a goal of making society 
more resilient for disasters.
    In addition to my full-time employment, I have also held 
relevant pro bono positions. I recently completed a 4-year term 
as part of the D.C. Homeland Security Commission, where I 
advised the city on homeland security and emergency management 
policies. I am also a cyber fellow at the Center for Cyber and 
Homeland Security, where I contribute to homeland security and 
emergency management topics.
    In conclusion, thank you for your consideration of my 
nomination . If confirmed, I will work tirelessly to help 
prepare governments, communities, and individuals for man-made 
and natural disasters. Leading FEMA's preparedness programs 
would be the culmination of many experiences in my career in 
homeland security and emergency management, and I can think of 
no higher honor than serving the American people, FEMA, and its 
stakeholders to enhance the Nation's preparedness for 
disasters.
    Thank you.
    Senator Lankford. Thank you.
    Mr. Pittman, also be honored if you would introduce any 
family or guests that you may have and then also receive your 
opening statement.

    TESTIMONY OF JONATHAN H. PITTMAN,\1\ NOMINATED TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Pittman. Thank you, Mr. Chairman. My parents are 
sitting behind me, as are many friends and relatives, so I 
acknowledge them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pittman appears in the Appendix 
on page 78.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am deeply 
grateful to you for the opportunity to appear before you as you 
consider my nomination to be an Associate Judge of the Superior 
Court of the District of Columbia. It is a great honor and very 
humbling to be recommended for this position.
    I would like to thank the Judicial Nomination Commission 
and its Chair, Judge Emmet Sullivan, who is here today, for 
recommending me to the White House, and I would like to thank 
the President for nominating me.
    I also would like to thank Congresswoman Norton, who, 
although she could not attend today, submitted a statement\2\ 
on my behalf.
---------------------------------------------------------------------------
    \2\ The letter from Congresswoman Norton appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    Finally, I would like to express my sincere thanks and 
appreciation to this Committee, Members, and your staff for 
their hard work and for considering my nomination so carefully 
and expeditiously.
    I would also like to acknowledge and thank my wife, Wendy 
Smith, who is sitting behind me, for her encouragement in my 
pursuing public service and for her unwavering support. Without 
her love and support, I would not be sitting here today.
    I also thank my parents, Fred and Joan Pittman, who are 
here today from South Carolina, for their guidance and support 
during my entire life. They taught me to work hard, strive for 
excellence, and always treat everyone with dignity and respect.
    I would also like to acknowledge my stepson, Spencer Smith, 
who has taken time away from his preparation for the Law School 
Admissions Test to travel here today from Massachusetts, and my 
daughters, Anna Kate and Louisa, both of whom are in school 
today.
    Finally, I would like to acknowledge the many friends and 
colleagues who have mentored and supported me throughout my 
career, and I appreciate that many of them are here today.
    I moved to the District of Columbia 27 years ago, after 
graduating from Vanderbilt Law School, to begin my law career 
as a law clerk to the Honorable John A. Terry of the District 
of Columbia Court of Appeals.
    I then joined Crowell & Moring, a large law firm here in 
the District, where I worked with and learned from some of the 
finest lawyers in the country. During my more than 20 years in 
private practice handling complex civil litigation, I appeared 
before excellent trial and appellate court judges all over the 
country, and I am thankful for that experience.
    Since 2012, I have had the honor and privilege of serving 
the citizens of the District of Columbia under two Attorneys 
General for the District, first under Mr. Irvin Nathan and more 
recently under Mr. Karl Racine, who is also here today.
    I have served as a section chief in the Civil Litigation 
Division, which defends the District of Columbia and its 
employees in civil litigation in the Superior Court as well as 
in the United States Court for the District of Columbia.
    More recently, I have served as the Assistant Deputy 
Attorney General for the Civil Litigation Division, where I 
assist the Deputy Attorney General in managing the operation of 
the division.
    My deep respect for the rule of law began with my clerkship 
with Judge Terry and continues to this day. My experience with 
Judge Terry and the many judges I have appeared before over the 
years has given me an appreciation of the skill, dedication, 
and patience that is required to be a successful judge.
    If I am fortunate enough to be confirmed, I will commit to 
treating all parties with dignity and respect, to ensuring that 
all parties have an opportunity to present their case, and to 
making thoughtful and timely decisions.
    Thank you again for considering my nomination, and I look 
forward to answering any questions that you have.
    Senator Lankford. Thank you. Thanks to both of you and your 
families that are here.
    There are three questions that we ask all nominees. I am 
going to ask all three of these questions to you, and then 
myself and the Ranking Member are going to defer to some of the 
other Members to be able to ask questions first after that.
    So let me give you three quick questions. I will ask one 
question and then ask both of you to be able to answer it, yes 
or no.
    First question. Is there anything that you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated? Mr. 
Kaniewski.
    Mr. Kaniewski. No.
    Senator Lankford. Mr. Pittman.
    Mr. Pittman. No.
    Senator Lankford. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Kaniewski.
    Mr. Kaniewski. No.
    Senator Lankford. Mr. Pittman.
    Mr. Pittman. No.
    Senator Lankford. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed? Mr. Kaniewski.
    Mr. Kaniewski. Yes.
    Senator Lankford. Mr. Pittman.
    Mr. Pittman. Yes.
    Senator Lankford. Thank you.
    I would now recognize Senator Harris for opening questions.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Mr. Kaniewski, I want to talk with you about something that 
most of the West Coast States are experiencing right now, which 
is our States are burning. I have had this conversation with 
Senator Tester, have had this conversation with my colleagues 
from Washington State, Oregon, and Montana.
    In California, in particular, wildfires are posing a great 
risk to our State. There are a currently nine major wildfires 
in California that are burning, and together, they have burned 
already more than 250,000 acres.
    When we look at it--that is in addition to more than 6,400 
fires that have flared up in California from January through 
Labor Day alone, which is more than all of 2016 in terms of 
what we experienced. So California and other western States 
have come to expect this, and it seems that every wildfire 
season has been more destructive than the last.
    To what do you attribute this change?
    Mr. Kaniewski. So, first, let me acknowledge that as a 
former firefighter----
    Senator Harris. Yes.
    Mr. Kaniewski [continuing]. I truly do understand the 
threat of wildfire and the need to prepare for these types of 
events.
    I do not know that I can attribute exactly what is 
happening now. I can certainly acknowledge that this appears to 
be a historic fire season, and that there are a number of 
efforts that, in my mind, could be undertaken. And it is not 
clear to me if the Federal Government is currently doing those.
    Should I be confirmed, I would, of course, be very 
interested to learn how FEMA is working with other Federal 
partners, such as the Department of Agriculture (USDA) and 
Department of Interior (DOI), on fire.
    Speaking personally, fire is clearly a priority for me.
    Senator Harris. Yes.
    Mr. Kaniewski. And whether it be back from my fire service 
time or more recently understanding the wildland-urban 
interface, for example, I think there are some critical issues 
that we need to dive into.
    Senator Harris. Yes.
    Mr. Kaniewski. And I commit to you that should I be 
confirmed, those will be a priority for me.
    Senator Harris. And thank you, and I appreciate that.
    My brother-in-law is a firefighter, and I appreciate your 
service and the sacrifice in doing that work.
    Tell me, what is your thought about a deforestation as an 
element of the issue?
    Mr. Kaniewski. Sure. So deforestation, I am sure is a 
contributing factor. It is not something that I have studied in 
depth.
    My focus at FEMA would be to develop preparedness programs 
and make sure those preparedness programs are effectively 
delivered based on stakeholder needs, so make sure that they 
are tailored to needs of individual locations. It could be 
State and local communities, for example, or particular areas 
that are hard hit by wildfires.
    If confirmed, we at FEMA need to make sure we are 
supporting your local responders in those firefighting efforts.
    Senator Harris. I appreciate that, and that is important to 
California. And I look forward to working with you to help make 
that a possibility of working with local firefighters.
    And then, Mr. Pittman, thank you for your service so far.
    Tell me something. I know that Washington, D.C., has 
instituted bail reform and has at least replaced or given 
greater emphasis to risk assessment than to an accused's 
ability to pay, to be released from jail pending trial. What 
are your thoughts about that as a model for the country?
    Mr. Pittman. As you may know, I do not really practice in 
the criminal area, so my knowledge in this subject matter is 
limited. But my sense is that it is a very good idea. I know 
the Superior Court has done away, essentially, with bail, as I 
understand it, and as someone from the outside looking in, it 
seems to be working. So I would, I think, encourage other 
States and jurisdictions to look into that.
    Senator Harris. And to the point of what your career has 
been thus far, how do you imagine you are going to make the 
transition into a system that will involve a high volume of 
cases every day, litigants coming in often without attorneys 
and mostly without attorneys? What do you imagine to be the 
challenges for that new position?
    Mr. Pittman. Managing the caseloads.
    To the extent I am put on a division of the court that is 
not an area where I have practiced substantively, I believe 
that there would be a learning curve, as there is with any new 
judge.
    We manage a very significant caseload in the Civil 
Litigation Division, as it is, and so I am familiar with fast-
moving large caseloads.
    Pro se litigants, we deal with pro se litigants as 
opponents as opposed to litigants appearing before us, but I am 
also used to that as well.
    Senator Harris. And can you tell me what in your 
experiences will prepare you for those types of disputes? 
Because the vast majority of the cases you will hear, if 
confirmed, involve low-income D.C. residents, their domestic 
violence cases, landlord-tenant cases, things of that nature, 
and again, they will not be represented by counsel. How do you 
propose to get to know this population that will be before you, 
if you do not already?
    Mr. Pittman. Well, I have some experience with the 
population at least in the Civil Division to the extent they 
sue the District of Columbia. We have a lot of pro se litigants 
who do that.
    I think, as any judge, you need to learn the law in the 
area, to the extent you do not know it, and the most critical 
thing for any judge is to learn to gather the facts quickly, to 
make sure the litigants before you both provide you with the 
facts you need but critically understand the process.
    I would not, if I was confirmed, ever want somebody to come 
into my courtroom and leave without knowing exactly what 
happened, why I ruled the way I did, and so, as I manage a 
large caseload today, I need to learn how to gather the 
critical facts in those cases and get to the facts that are 
necessary for providing advice or decisions to the line 
attorneys. So I think that experience would be very helpful.
    Senator Harris. Right. And I will acknowledge that I think 
you mentioned earlier that Attorney General of the District of 
Columbia is in the audience, Karl Racine, who speaks highly of 
you.
    Thank you.
    Mr. Pittman. Thank you, Senator.
    Senator Lankford. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, and thank you to the nominees 
for being here, and congratulations on your nominations.
    Mr. Kaniewski, I just wanted to start with you. Obviously, 
the timing of this hearing on your nomination is not a 
coincidence. Your services are going to be needed in order to 
help the survivors of Hurricanes Harvey and Irma, so I hope we 
can get you on the job as soon as possible.
    And while emergency response is a critical part of helping 
save the lives of those affected by hurricanes as powerful as 
the ones we have just seen, we have to continue also to work on 
prevention and mitigation efforts, so we can reduce the impact 
of future natural disasters on our infrastructure and on our 
people.
    As Governor of New Hampshire, I often found myself dealing 
with some flooded territories in our State, year after year. 
They would flood; we would cleanup. They would flood again; we 
would cleanup again. And Federal support only came in the 
aftermath of these crises, leaving it to our State to address 
the up-front investments in infrastructure that would help to 
mitigate the extreme effects of these disasters.
    So, consequently, we took steps to launch a hazard 
mitigation initiative in New Hampshire that would help us 
inventory our most at-risk locations during natural disasters 
and then help us to develop a way to target our limited 
resources more effectively.
    From my experience, our Federal programs may not be 
properly incentivizing our States to make the necessary 
investments in our infrastructure that would help us mitigate 
the long-term consequences of a disaster, and unfortunately, 
the President's Budget Request for Fiscal Year (FY) 2018 
dramatically cuts funding for pre-disaster mitigation.
    So can you talk to me about your approach to pre-disaster 
mitigation investments and whether you support a Federal role 
for incentivizing these kind of investments?
    Mr. Kaniewski. Thank you, Senator.
    First, congratulations on making, it sounds like, a 
concerted effort on risk assessment for flood and coming up 
with mitigation plans.
    Senator Hassan. Yes.
    Mr. Kaniewski. Your community should be applauded for that.
    Second, my role, if confirmed, at FEMA would be the 
Preparedness Division, which focuses on planning, training, 
exercises, equipment to help those State and local officials do 
their job to prepare for future disasters.
    The thrust of your question is actually more relevant to 
the Federal Insurance and Mitigation Administration, which is 
outside of what would be my authority, should I be confirmed.
    But let me answer the question, even though that is----
    Senator Hassan. Yes.
    Mr. Kaniewski [continuing]. That is not going to be my 
responsibility, per se. Let me say that, one, I am a huge 
advocate of mitigation.
    Senator Hassan. Yep.
    Mr. Kaniewski. I believe that we as a government need to do 
a better job of assessing risks and quantifying those risks and 
having those informed mitigation programs and risk transfer 
programs. I can tell you that that is what I have done for the 
past year in the private sector, and I see a lot of value in 
what the insurance industry does to that end.
    And my goal, if confirmed, would be to bring some of those 
best practices into FEMA, make sure that FEMA understands how 
the private sector, such as the insurance industry, assesses 
risk, quantifies risk, mitigates risk, and transfers that risk 
as appropriate.
    Senator Hassan. Thank you.
    And I would encourage you, too, just to avoid siloed 
thinking because I think we do better understanding that there 
is a division of responsibility here, but obviously, in your 
role, you could have a lot to do in terms of looking at pre-
disaster mitigation policy at the Federal level. And we would 
appreciate it very much.
    Mr. Pittman, I often just start when I am talking with 
somebody about their desire to be a judge with asking the 
question: What brought you into the law, and why do you want to 
be a judge?
    Mr. Pittman. I was always interested in the law. I did not 
really know a whole lot about it. I think nobody does until 
they go to law school.
    I began my legal career in the Court of Appeals, but I 
started that clerkship really my first year of law school when 
I was invited to interview with Judge Terry. And I saw an oral 
argument in the D.C. Court of Appeals, and it brought to life 
that which I had been learning. And that is where it started.
    As I have practiced over the years, I have seen the 
influence and the importance of having good judges. I have had 
the good fortune to appear before many good judges. As a judge, 
you have the potential to have a huge impact on people's lives, 
and the ability to do that and do it well and ensure that 
people have as positive outcomes as they can when they are 
involved in the judicial system is something I have always 
wanted to do.
    Senator Hassan. Great. Thank you.
    I wanted to give you a chance to speak about something that 
you disclosed on your biographical questionnaire for the 
Committee. You disclosed that a paralegal who had previously 
worked in the Civil Litigation Division under your leadership 
filed a claim with the D.C. Office of Human Rights against the 
AG's office for racial discrimination and failure to 
accommodate a disability.
    You also disclosed an incident involving this employee 
where the employee claims that you threatened him and called 
the police.
    I know that my staff and other staff members dug into this 
a bit and heard your side of things and found it quite 
compelling, so I just would like to give you the opportunity 
publicly to address those complaints.
    Mr. Pittman. Sure. And just to be clear, I did not call the 
police. This was a staff member. I was giving him his annual 
review. Portions of it were not satisfactory, and I did say 
that. He disputed that and was not happy about it.
    We had a somewhat heated conversation. I left, and the next 
thing I knew, he had called the police to claim that I had 
threatened him. The police quickly determined that there was 
nothing there.
    He later filed a complaint alleging that he had not been 
promoted because of racial discrimination. I can tell you that 
the Office of the Attorney General does not discriminate on the 
basis of race or anything else. I can tell you that the Office 
of the Attorney General investigated this up to the level of 
the Attorney General himself and found there to be no merit to 
the claim.
    I do not think I can add any more to the record, other than 
to say it is a meritless claim.
    Senator Hassan. Thank you very much for that, and thank you 
both for your willingness to serve.
    Mr. Pittman. Thank you.
    Senator Lankford. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and to our 
nominees, it is good to have you here before us.
    I would like to say at the onset, as I know a number of my 
colleagues have also expressed their concerns, about there are 
two hurricanes that have hit us and the tremendous damage that 
has been occurred, and certainly, our thoughts and prayers are 
with all those that have been impacted.
    And that means, Dr. Kaniewski, your testimony here today is 
even more important, given the fact that you will be working 
closely with something that is under my jurisdiction as well as 
the Ranking Member of the FEMA subcommittee, and if confirmed, 
I will look forward to having an opportunity to work very 
closely with you as we review FEMA's operations as well as 
their performance with these two hurricanes, which so far from 
what I have heard have been getting good reviews. But it always 
is an opportunity for us to look for best practices and ways 
that we can make their performance even better. It seems as if 
we may see more large events occurring in the future based on 
climate change, and we need to be prepared for those 
contingencies.
    So let me start, though, asking you questions, Dr. 
Kaniewski, first about some legislation that I introduced with 
Senator Collins. It is the Firefighters Retention Act of 2017, 
which would allow fire departments to use Staffing for Adequate 
Fire and Emergency Response (SAFER) grants to transition part-
time firefighters into full-time positions. I should say it 
surprised me that under SAFER grants, you could not bring a 
part-time firefighter who is fully trained into full-time 
status.
    As a former firefighter yourself, I am sure you appreciate 
the training that our paid-on-call and part-time firefighters 
go through. So this legislation saves money and allows fire 
departments to have the flexibility necessary to bring those 
trained professionals into their permanent force.
    It has passed the Senate, both the Committee and now the 
full Senate, and I just want to get a sense of your thoughts in 
terms of grants and the ability to have some flexibility when 
it comes to spending the FEMA grants, both in this particular 
case with part-time firefighters, but more broadly, what sort 
of reforms do you think we should be looking at?
    Mr. Kaniewski. Well, first, Senator, thank you for the 
information about your legislation. I was not aware of the 
details, and I am pleased to see that you are taking leadership 
on this issue because I, too, believe that firefighters and 
first responders writ large deserve the support of our Federal 
Government. And, if confirmed, in my future rule, it would be 
to oversee some of these grant programs that you mentioned.
    Two of them are, I know, very important to the 
firefighters. One is the Assistance to Firefighters Grant 
Program, and the second is the one you mentioned, the SAFER 
Act.
    I am very proud to say that in the late 1990s when I was 
working on the Hill, I played a role in supporting the Members 
of Congress who introduced that legislation creating the fire 
grant program. So this is something I am very passionate about, 
and it is something that I would expect, if confirmed, to take 
a leadership role on.
    On your second point, I can say that quite confidently that 
the two grant programs are really a cornerstone for the grant 
programs that we offer at FEMA. Many of the grant programs are 
quite broad. The State Homeland Security Grant Program and the 
Urban Area Security Grant Program, I think it is a good thing 
that we have grants specifically tailored to the firefighters 
to address some of the concerns that you have personally 
raised.
    So, one, thank you for introducing that legislation. I 
cannot comment specifically on it, only because I am not 
familiar with it at the moment, but I commit to you that if 
confirmed, I will certainly do a deep dive and work with your 
staff to understand how that might be applied at FEMA.
    Senator Peters. Right. Well, I appreciate that.
    I also appreciate having some time with you in my office 
prior to today's hearing to do a deeper dive into a variety of 
issues, and as I mentioned in our meeting together, that I was 
particularly disappointed that Michigan did not receive a major 
disaster declaration for the water crisis that occurred in 
Flint, Michigan, because the disaster was not the result of a 
natural catastrophe, the result of fire, flood, explosion. It 
was a man-made tragedy, although as you and I spoke about--and 
I think you agree--that to a child who is suffering from the 
effects of the strategy in Flint, they did not care it was man-
made or natural. It was a tragedy and a catastrophe, plain and 
simple, that we need to deal with.
    And as we also discussed, what we saw in Flint may be a 
precursor for what will happen in other cities in the future, 
and we need to be prepared for that and think about that.
    And so since you will be overseeing FEMA's grant programs, 
do you have some specific ideas for training programs that 
would help State and local governments be prepared for this 
kind of man-made disaster that is absolutely catastrophic to 
the citizens of those communities?
    Mr. Kaniewski. Well, first, thank you for giving me that 
deeper understanding of the crisis that Flint faced with 
respect to the lead in the water. That is clearly concerning to 
anybody in emergency management that you would have people 
suffering from potential consequences of that. Like you said, 
it could be a man-made or natural disaster. Emergency managers 
need to be prepared for that.
    And I credit your State's emergency manager, Chris 
Kelenske, who I have seen brief this matter at a number of 
constituency conferences, and I appreciate the leadership that 
he has played personally on that for the State of Michigan.
    To your broader point, I honestly believe that there are 
lessons from that incident that Michigan faced that could be 
applied more broadly. Whether it be understanding the logistics 
chain for supporting communities that do not have drinkable 
water or, two, the underlying issues with respect to 
infrastructure and other longer-term challenges that are 
outside the scope of my current position, should I be confirmed 
for it, I would say that we need to be linked at the hip on 
that, and I certainly would make sure that FEMA leadership is 
aware of my concerns and my ideas about how I think we could 
take some of those best practices from Michigan and apply them 
more broadly to other communities to make sure that they are 
prepared for future events, whether they be man-made or natural 
in origin.
    Senator Peters. Well, if confirmed, I look forward to 
spending quite a bit of time with you and perhaps before our 
Subcommittee as well discussing this issue and others, so thank 
you for your answers today.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    First off, we have had a little bit of a dispute here in 
the Committee and with some of the arguments that the 
Department of Justice (DOJ) is making in terms of obligations 
that nominees have to respond to questions from Congress, 
regardless of source, and so, Dr. Kaniewski, if you were asked 
in your policy questionnaire whether you would commit to 
responding to any reasonable request for information from the 
Ranking Member of this Committee or any other committee or any 
other Member of Congress--and I want to reiterate your 
response--I want you to reiterate your response here just for 
the record.
    Mr. Kaniewski. Of course. Yes, I would respond to any 
inquiry from this Committee.
    Senator Heitkamp. Regardless of political party, regardless 
of who submitted the inquiry, correct?
    Mr. Kaniewski. Correct.
    Senator Heitkamp. One of the great challenges that we have 
had over the years has been kind of this morphing, I think, of 
preparedness, where you do not really even see lines of 
demarcation between the Federal Government and State and local 
government, and it has been a good thing, in my opinion, but 
now we are looking at budget requests, which would really see a 
retraction of Federal support, probably still with Federal 
oversight, but a retraction of Federal fiscal support.
    I am obviously very concerned about the President's budget, 
the Administration's budget. Can you tell me whether you would 
continue the level of commitment, financial commitment, that 
the Federal Government has engaged in and advocate for that 
level of commitment kind of going forward or whether you 
believe that the Administration's budget is adequate to 
basically continue to play that seamless role that the Federal 
Government now has?
    Mr. Kaniewski. So while I was not involved in the fiscal 
year budget discussions, I am aware of the overall proposed 
cuts.
    What I would like to do, if confirmed, is better understand 
the rationale behind those cuts and what plans FEMA has in 
place to address that.
    Certainly, in many circumstances in life, certainly in 
government, there are budget constraints, and I can only pledge 
to you that if I face a budget constraint, if confirmed, I will 
make sure that FEMA does everything they possibly can with 
those dollars, understanding as well that I will have an 
opportunity, I would hope, to voice my support for something I 
have been very open about during my career, which is that 
Federal grants have had a positive impact on State and local 
preparedness since 9/11, and that we are better prepared today 
than we were then because of those grants. So just know that 
you will have a voice in those future budget discussions and, 
frankly, in every discussion I have about grants and about the 
need to support State and local responders moving forward.
    Senator Heitkamp. I could not agree with you more. When we 
had the Grand Forks flood, I recall vividly taking off the 
shelf the flood preparedness plan, which had collected about 
that much dust, and realizing it was no longer relevant, but 
because we did not have an ongoing and concerted effort to deal 
with flood mitigation and flood response, that left us 
scrambling.
    And I think that with FEMA's involvement since that 1997 
event and then going into 9/11 and going into now what we see, 
these catastrophic hurricanes, Katrina--now we have Harvey and 
Irma--it is hardly a time to retract preparedness.
    And it is remarkable when you think about two Category 4s 
and hopefully, we will not see any more loss of life. But when 
you compare it to what would have happened in the 1960s, it is 
pretty dramatic.
    And I know in your response to Senator Hassan, you said, 
look, that is not my jurisdiction, but I will tell you that in 
every event like this, preparedness begins in evaluating, as 
you did with 9/11, what went wrong, how could we prevent that. 
And one of the things that, again, we are going to have a 
conversation on is resiliency of infrastructure, and so I hope 
that your response to her on, not my line is limited to what 
you can just say about the job that you are applying for.
    We certainly expect that you will participate in a broader 
discussion about how we can build greater resiliency among the 
infrastructure and really at every level, whether it is 
residential construction or whether it is infrastructure 
construction.
    Mr. Kaniewski. Yes, ma'am.
    And to clarify, my response was regarding flooding and 
mitigation, which are a focus of a different FEMA division. 
But, absolutely, I am very passionate about building resiliency 
in communities and understanding the risks they face and 
building appropriate preparedness programs to help those State 
and local officials deal with those risks they face. So you can 
count on me on voicing those concerns.
    Senator Heitkamp. After the flood, I was Attorney General 
(AG) in North Dakota. I had an opportunity to talk to the 
Attorney General in Florida, who told me of the shoddy 
construction in the rush to rebuild, the rush to recovery, and 
I think it is really critically important that we all work 
together to make sure that people who are doing flood recovery 
are--that is the beginning of the step of the next resiliency 
step in preparedness. So I do not see those as lines of 
demarcation, and I am glad to hear you really do not either.
    Mr. Kaniewski. I agree with you.
    Senator Heitkamp. OK.
    Mr. Pittman, again, thank you for your willingness to 
serve, and thank you to your parents who are here with you and 
your beautiful wife and all your friends. I think it speaks 
volumes that you have collected so many great people in your 
life moving forward.
    Unfortunately, many of the people that you will serve 
sitting on the bench have not had that level of fortune--I 
think we are all lucky in terms of who our parents are.
    What do you think is the single life experience that you 
have had that has prepared you to sit in the District of 
Columbia on the bench serving the people of the District of 
Columbia?
    Mr. Pittman. I do not think it can be a singular life 
experience. I think it is the many years of practice in many 
areas and seeing what happens, seeing litigants in need.
    I think the case that probably--and I think I disclosed 
this in my questionnaire. The cases that probably had the most 
impact on me were the unjust imprisonment cases, where the 
Civil Litigation Division had to deal with cases under our 
local statute, where five men who had been wrongfully convicted 
and served years in jail for crimes that it, ultimately, was 
proved they did not commit. That probably had the single most 
personal impact on me, on understanding how we really do have 
to get this right--judges, prosecutors, defense attorneys.
    Senator Heitkamp. OK. Thank you.
    Senator Lankford. Thank you to both of you. I have several 
questions. We have had the opportunity to be able to visit 
extensively in my office and go through a lot of these things. 
I just want to be able to do some additional questions and 
statements.
    And, Mr. Pittman, to your stepson, if he does not do well 
in getting into law school, it is all on you today, the timing 
of that. [Laughter.]
    So you may want to spend some extra time.
    Mr. Pittman, as a nominee, there is this great struggle 
between looking at the emotion of a case in front of you, look 
at the facts of the case, and look at the law, and all of those 
weigh into how you actually balance that out.
    Give me either an example of how you will try to derive 
decisions when you sit as the judge at that point and be able 
to balance out opinion, facts, law.
    Mr. Pittman. I think opinion probably is something you do 
not want to influence your decision. You look at what the law 
is that is applicable to the case in front of you, and you 
determine the facts. And you apply those facts to the law. I 
think that is the most critical function of a judge.
    Senator Lankford. As you balance out criminal issues in the 
District--you have talked a lot about the civil issues.
    Mr. Pittman. Right.
    Senator Lankford. Obviously, you have worked mostly on 
civil issues in the past.
    Mr. Pittman. Right.
    Senator Lankford. As you look at criminal issues in the 
District, where is the area that you think from the bench you 
can be the greatest help in these issues?
    Mr. Pittman. I think moving the cases along expeditiously 
is part of it, ensuring fair trials. Certainly, felony trials 
in the District of Columbia are almost exclusively tried by 
juries rather than by the judge, so the judge is not the fact 
finder. But moving the case along is probably the most 
important thing you can do, but ensuring that the trial is 
fair.
    Senator Lankford. Yes. Just the speed to be able to get to 
trial is one of the biggest issues we face as a Nation, period. 
How many delays--you and I spoke about this in my office. The 
delays of actually getting to the point of decision is a 
frustrating thing for everyone, and sometimes attorneys are not 
well prepared, and so they ask for delays. But the people that 
need the justice are right behind them, and they need a judge 
that is going to help them move the case along as they go 
through that. So I appreciate both of those.
    Dr. Kaniewski, Mayor Buckhorn from Tampa has become famous 
this past week, not for just leading a great city that he 
leads, but for his statement to the media that, ``We are about 
to get punched in the face.'' But people do not forget the rest 
of that statement. He stepped up and made the statement, ``We 
have done all that we can to prepare, but we are about to get 
punched in the face, and then everything changes at that 
point.''
    Your role is really to help people get prepared for that 
moment, but disaster comes, it gets harder at that point.
    So my question for you is very specific. How do you help 
local communities and States and very qualified emergency 
management folks in each State deal with a sense of urgency 
when the storm is not coming right now, but if they prepare 
right now, it will make a difference when it comes? So help me 
in your role of how you are going to help them with processing 
urgency to prepare.
    Mr. Kaniewski. Senator, I think it is important, one, that 
we sensitize the American public. That just because we may not 
have had catastrophic disasters maybe for the past decade does 
not mean they cannot happen.
    Some of the language that we use in emergency management is 
very confusing. We talk about a 1-in-100 year flood event. 
Well, we have had a number of those this year or even 1-in-500 
year events. Why would anybody buy flood insurance if you are 
told when you buy the house, ``Oh, you are outside the flood 
zone, and the chances of you having a problem are minimal,'' 1 
in 100 years, 1 in 500, whatever.
    The reality is that that statement does not reflect the 
risk that they face. The reality is that there is a chance that 
a homeowner could lose their home due to flooding, and by not 
taking appropriate actions, whether it be to prepare 
themselves, their family, their home, or to take appropriate 
actions, like buying flood insurance, is putting them in a very 
vulnerable situation.
    The second kind of part of your question was related to how 
do we make sure that in a real-time event that people remember 
those messages, and people cannot buy flood insurance as the 
hurricane is coming ashore, the 30-day waiting period. These 
are decisions they would have had to make months in advance.
    But, again, we get to sensitizing the American public that 
the risk is real, that they need to take preparedness actions, 
and so when they hear those messages, when they hear these 
officials give these dire warnings, that, one, they take them 
seriously, and two, that they have a plan in place. They know 
what they are going to do. They know where they are going to 
evacuate their family.
    That is easier said than done. I get that, but from my 
perspective and, if confirmed, in the role, should I assume it, 
would be to be an advocate, to make sure that we help 
communities understand those messages, and two, we help State 
and local officials understand how to deliver those messages.
    Senator Lankford. You were co-author of the report after 
Hurricane Katrina, helping FEMA be able to evaluate what were 
the lessons learned. If I recall, there are 125 recommendations 
that came out of that. Your doctoral work was going back to be 
able to take a look at that as well.
    In the preparedness lane, in that lane alone--and I know 
there are lots of other areas--of that 125 lessons learned from 
Hurricane Katrina, what is undone?
    Mr. Kaniewski. Well, I think there is always more to be 
done on preparedness. It is one of those things you can never 
prepare too much.
    Senator Lankford. Right.
    Mr. Kaniewski. Right? So from my perspective, as a citizen, 
I would like to see both the messaging that we just discussed 
as well as real tangible actions that we as citizens can take 
when--to prepare ourselves before that disaster strikes, and I 
am not sure we have that right now.
    Again, I commit to you that, if confirmed, I will certainly 
go and take a deep dive on initiatives that FEMA has done on 
preparedness, such as ready.gov, but I think that there is more 
we can do. And that is me as a citizen saying that. I think 
that there is more that we can do to help citizens understand 
how to better prepare for these disasters.
    Senator Lankford. OK. I have a couple more questions, but I 
am going to defer to Senator Daines, so you will be able to 
step in and ask questions. Senator Daines, you are recognized.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    Dr. Kaniewski and Mr. Pittman, thank you for your 
testimony, your willingness to serve. The positions you have 
been nominated for are critical to our Nation's ability to 
adequately prepare for disasters and ensuring that Washington, 
D.C., residents have access to swift as well as accurate 
justice.
    Dr. Kaniewski, my home State of Montana has been devastated 
by wildfires this summer. Certainly, as you watch the national 
media, it is fixated on Hurricanes Harvey and Irma and 
understandably so. Up in the Northern Rockies, we have had a 
fire season that is one for the record books. We are in full-
crisis mode. In fact, we could go 20 of the top 30 fires in the 
Nation were in the State of Montana.
    Over 700,000 acres are currently burning as we sit here 
today. We have had over 1 million acres scorched--that is 
equivalent to the size of Delaware--this summer.
    The magnitude of these fires coupled with State budgeting 
challenges have nearly exhausted all of our firefighting 
assets. I have been fighting for Montana, speaking of fighting, 
to get the resources needed first to stop the fires.
    We hope for a season-ending event. That means big 
rainstorm, snow in the high country, but we have had a weather 
pattern and a drought that has not been seen for, in some 
cases, over 100 years in parts of Montana.
    But we can do more to prevent these wildfires, to prevent 
the magnitude and severity of them. We will never eliminate 
them, but we can do work to try to minimize the disastrous 
impact that they have. And instead of allowing these natural 
resources just to burn, we should be managing our forests, 
harvesting timber, creating jobs.
    Dr. Kaniewski, your career began as a firefighter. You have 
front-line experience. As the FEMA Deputy Administration for 
Protection and National Preparedness, you will have a key 
preemptive role in developing resiliency to these natural 
disasters, should you be confirmed.
    How will you help localities mitigate the risk of wildfires 
as well as local fire departments when these disasters do 
strike?
    Mr. Kaniewski. So I know that this is something that is not 
only close to my heart, but also to those representing the fire 
service in the audience today. So I would like to acknowledge 
their presence and say that I fully intend to give voice to the 
firefighters at FEMA. To the extent that they have not had a 
voice in the Preparedness Division, they have one now.
    I look forward to working closely with the United States 
Fire Administrator, who is also a FEMA official, as well as 
officials from the Department of Agriculture and Department of 
Interior, who have the lead on responding to wildfires at the 
Federal level.
    As you correctly noted, my position is to focus on the 
preparedness aspect of all risks, including wildfires. I am 
proud to say that I was part of the conception of the 
Assistance to Firefights Grant Program in the late 1990s and am 
an advocate, as a firefighter, for those kinds of programs, 
including any of the grant programs that could be applicable to 
fire fighters.
    I will say that there are certainly challenges, as I 
understand it. Again, as someone, as a private citizen watching 
the wildfires out West in Montana burning, clearly, there are 
many challenges beyond the scope of what I can accomplish. But 
I commit to you that when it comes to preparing for these types 
of events, you will have no bigger advocate in FEMA to prepare 
for risks that individual communities and States face--and in 
the case of Montana, it sounds like it is wildfires--I will be 
there.
    Senator Daines. And your background as a firefighter is 
much appreciated.
    Tragically, two firefighters have lost their lives this 
summer on the front lines in Montana.
    You brought up the issue of preparedness. As I mentioned 
earlier, our whole country is very aware of the devastating 
that hurricanes inflict. The victims of Hurricane Harvey, the 
victims of Hurricane Irma are fresh in our minds and our 
prayers.
    The front page of Ready.gov has preparedness tips for 
hurricanes and flooding, but I have noted it is lacking in fire 
preparedness. And you brought up this issue of preparedness. So 
I think we have an opportunity.
    Forest fires do impact families virtually in all of our 
States. As Deputy Administrator, how will you update Ready.gov 
or undertake other efforts to increase national awareness of 
the threat of fire?
    Mr. Kaniewski. Sir, it sounds like, if confirmed, I will 
have some quick actions to take upon coming aboard.
    As I said, I certainly acknowledge that wildfires are a 
risk that we need to be preparing our communities for, and to 
me, based on how you describe it, it sounds like an oversight 
that should be addressed. So, if confirmed, I promise to look 
into that and make sure that wildfire is among the risks that 
FEMA help State and local governments as well as individuals in 
communities prepare for.
    Senator Daines. Thank you.
    Mr. Pittman, the role of law is to establish certainty for 
those to whom it applies, to provide a structure within which 
to interact, do business, build families, pursue life. Do you 
believe that it is the role of the judge to define what law is?
    Mr. Pittman. No, Senator. The law, as a judge, is either 
set forth by the legislature--as a trial court judge or the 
Court of Appeals, the role of the judge is to take the law and 
apply that to the facts of the case that are before the judge.
    Senator Daines. So building on that--and thank you--how do 
you intend to ensure that you faithfully apply the law as the 
drafters of that law intended?
    Mr. Pittman. Either read the law--to the extent it is a law 
where there is a body of case law by a court that you are 
responsible to, like the Court of Appeals, you read the 
relevant cases, and you follow that.
    Senator Daines. And what impact, if any, should shifts in 
public opinion or social norms have on your determination as a 
potential judge on the application of the law?
    Mr. Pittman. To the extent those shifts show up and change 
the law, then you follow the law, but absent legislative change 
or changes in binding judicial authority, public opinion has no 
role in the judge's decision.
    Senator Daines. Thank you, Mr. Pittman.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you.
    A couple of other quick questions for Mr. Kaniewski.
    We have talked before about the role of FEMA and the 
partnership they have with State and local governments, so I am 
going to give you two quick questions on that.
    One of them is FEMA Administrator Brock Long, he called on 
local officials to be more self-sufficient. That is the 
wonderful balance that we face, is the more the Federal 
Government reaches in and helps, the more the States and local 
says, ``Great. This is overwhelming us. You take it,'' but the 
whole system collapses if the Federal Government and FEMA takes 
it because especially preparedness is really a local issue, to 
be able to drive it. So help me understand somewhat your 
perspective on balancing, locally managing this, having self-
sufficiency, as Brock Long mentioned, or the Federal role of 
what you are going to try to take on.
    Mr. Kaniewski. So I agree with you that there is this 
inherent tension between the role of Federal, State, and local 
governments on potentially any issue that we would want to 
consider beyond just emergency management.
    In the emergency management realm, something is very clear, 
which is that the Federal Government is there to support, not 
supplant, local and State efforts.
    Of course, in the response phase, the Federal Government 
needs to be forward leaning in helping in any way possible, in 
fact, being proactive in offering that assistance to State and 
local authorities.
    On the preparedness side, we need to be equally proactive. 
We need to make sure that FEMA is providing tailored training, 
exercises, equipment, planning, et cetera, any type of 
preparedness activity that might help those local officials, so 
that they can do their job. They can best understand the risks 
they face. They can best articulate those risks to the Federal 
Government in cases where they are seeking Federal funding, 
because from my view, we want to make sure that State and local 
governments best understand their risks, both for their own 
benefit and for their own action as well as to understand where 
they need help, and so they can best describe their risks.
    Senator Lankford. But disaster preparedness is ultimately a 
State and local responsibility more than it is a Federal?
    Mr. Kaniewski. The Federal Government, just like responses 
there to support their activities.
    Senator Lankford. So one of the questions--again, you and I 
talked about this in my office, and that is, FEMA's reputation 
as being a check writer or assisting in disaster relief, and 
some people view FEMA as a place that after disaster, they 
write checks and they hand out money, or some people see them 
as the people that actually carry out the task on this.
    Help me understand your perspective on the role of FEMA as 
a ``check writer'' in the area of disaster preparedness. Is it 
advice, counsel, strategy, or is it writing checks?
    Mr. Kaniewski. So I will be very honest with you. There are 
times in FEMA's history where it was viewed as the Federal 
Government's ATM.
    I am very proud to say that it is not viewed that way 
anymore and certainly not from the emergency management 
community, and that has a lot to do with Hurricane Katrina, the 
lessons learned, some of which we discussed here today, as well 
as the actions of this Committee.
    So this Committee authored the Post-Katrina Emergency 
Management Reform Act, which was passed and became law in 2006. 
That really empowered FEMA with many authorities that it lacked 
prior to Hurricane Katrina, and more importantly than the law, 
frankly, is it empowered the workforce. The workforce sees 
their job today as one of supporting those State and local 
authorities with everything they have, and there is, hopefully, 
nothing limiting their efforts today to support those current 
disasters and future disasters we will face.
    So, one, I wanted to acknowledge the Committee's actions on 
this to empower FEMA to take it past how it may have been 
viewed historically to today, where it is viewed as a very 
capable response organization for these hurricanes as well as 
an agency that is going to be there for State and local 
governments to help them prepare for the next one.
    Senator Lankford. Any final statements from either one of 
you that you would like to be able to make to this group?
    Mr. Pittman. None for me. thank you, Senator.
    Senator Lankford. OK.
    Mr. Kaniewski. No, thank you.
    Senator Lankford. OK. The nominees have made financial 
disclosures and provided responses to biographical and 
preparing questions submitted by the Committee.\1\ Without 
objection, this information will be made a part of the hearing 
record,\2\ with the exception of the financial data, which are 
on file and available for public inspection of the Committee 
offices alone.
---------------------------------------------------------------------------
    \1\ The information of Mr. Kaniewski appears in the Appendix on 
page 29.
    \2\ The information of Mr. Pittman appears in the Appendix on page 
79.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
September 13th, for the submission of questions and statements 
for the record. If Members wish to receive responses to their 
questions from Mr. Kaniewski prior to the Committee vote 
tomorrow, they must submit questions for the record by 5 p.m. 
today, so hustle.
    And we already have assurances from you and from the folks 
at FEMA that we will get rapid responses to any additional 
questions that we may ask, because there is a pending business 
meeting tomorrow that is already scheduled to be able to deal 
with your nomination at that point.
    Gentlemen, thank you both. Thank your families for being 
here and being a part of this process. We will consider this 
part of the process that is a long process moving forward to 
the next phase.
    With that, the hearing is adjourned.
    [Whereupon, at 11:21 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------            
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
